ELIZABETH L. JACOBS
Attorney at Law
Ford Building
615 Griswold
Suite 1125
Detroit, Michigan 48226

(313) 962-4090

elzjacobs@aol.com
Clerk of the Court February 17, 2020
Supreme Court of the United States
First Street, NE
Washington, DC 20543

Re: Skipper v Byrd
19-992
Request for Extension of Time

Dear Clerk,

This case was docketed by the Court on February 7, 2020. Mr. Byrd’s brief in
opposition to the petition for a writ of certiorari is due on March 7, 2020. On February 6, 2020,
Benjamin Flowers, Solicitor General for the State of Ohio, notified this Court and counsel herein
that Ohio planned to file an amicus brief at the certiorari stage. He also invited other states to
join in the brief.

In order to effectively represent Mr. Byrd and to fairly present his position to this Court,
he should be allowed time to answer the amicus brief.

Therefore, pursuant to SCR 30.4, Respondent requests a 30-day extension of the time
within which to file his answer in opposition to the petition for a writ of certiorari from the date
on which the amicus files its brief.

Yours truly,

EN).

Attorney for Respondent

ec: Ann M. Sherman, Deputy Solicitor General of Michigan
Benjamin Flowers, Solicitor General of Ohio
